Centers for Medicare and Medicaid Services (CMS) | Office of Inspector General
Medicaid Payments for Services Provided to Beneficiaries with Concurrent Eligibility in New York and New Jersey for July 1, 2005, Through June 30, 2006
August 08, 2008 | Audit A-02-07-01030
Executive Summary
For the period July 1, 2005, through June 30, 2006, we estimate that New York made $681,000 ($345,000 Federal share) in Medicaid payments on behalf of beneficiaries who should not have been eligible in New York due to their Medicaid eligibility in New Jersey.
Complete Report
Download the complete report  (PDF)
Return to CMS